Brandon L. Boxler
Direct: +1 202.955.8575
Fax: +1 202.530.9685
BBoxler@gibsondunn.com

March 13, 2020

VIA ELECTRONIC FILING AND U.S. MAIL
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Small v. United States, No. 19-1102

Dear Mr. Harris:
I am counsel of record for petitioner in the above-captioned case. Petitioner hereby
consents to the timely filing of amicus curiae briefs by any person, entity, or organization
supporting either party or in support of neither party in this case, provided that the amicus
curiae brief otherwise complies with the Rules of this Court.
Petitioner further respectfully requests that the petition for a writ of certiorari not be
distributed until the time for filing amicus curiae briefs in support of petitioner has passed.
Petitioner anticipates that at least one amicus curiae brief will be filed in support of the petition
for a writ of certiorari.
Respectfully submitted,

/s/ Brandon L. Boxler
Brandon L. Boxler
Cc:

.

Noel J. Francisco
SupremeCtBriefs@USDOJ.gov

